No. 20-1462
IN THE

upreme Court of the

uiteb

tate5

ENI USA GAS MARKETING LLC,
Petitioner,
v.
GULF LNG ENERGY, LLC AND GULF LNG PIPELINE, LLC,
Respondents.
AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that all parties required to be served, have been served, on this
11th day of August, 2021, in accordance with U.S. Supreme Court Rule 29.3, three (3)
copies of the foregoing BRIEF IN OPPOSITION by placing said copies in the U.S.
mail, first class postage prepaid, addressed as listed below.
Joseph J. LoBue
Sheppard Mullin Richter & Hampton LLP
2099 Pennsylvania Avenue, NW
Washington, DC 20006
(202) 747-1936
JLobue@sheppardmullin.corn

RAY i 4ND CHARLES CLARK
'ON S. ADAMS, LEGAL & COMMERCIAL PRINTERS
1615 L Street, NW, Suite 100
Washington, DC 20036
(202) 347-8203
District of Columbia
Signed and sworn to (or affirmed) before me on 11th day of August, 2021.

KA N PIERANGELI
NOTARY PUBLIC, DISTRICT OF COLUMBIA
My Commission Expires June 14, 2025.

